ii

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No.
SEAN A. CLARK,
Petitioner,
v.
MARK SCHROEDER,
NYS COMMISSIONER OF DMV,
Respondent.
AFFIDAVI T OF SERVICE

1. Andrew Cockle, of lawful age, being duly sworn, upon my oath state that 1 did, on the 5th day of August, 2021, send out
from Omaha, NE I package(s) containing 1 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEEATTACHED

To be filed for:
SEAN A. CLARK
Pro se Petitioner
93 4th Avenue 1172
New York, New York 10003
Phone #917-242-2573
Email: seatitellc_22@yahoo.com

received
AUG - 9 202'

Subscribed and sworn to before me this 5th day of August, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NGTARY-State of Nebraska
II
RENEE J. GOSS
My Comm. Exp. September 5,20231
Notary Public

(/

Affiant

41163

Counsel for Respondent
Barbara D. Underwood
Office of the Attorney General
28 Liberty Street
New York, New York 10005
800-771-7755

